      United States Department of Agriculture




Office of Inspector General
USDA's Implementation of Cloud
Computing Services




                                       50501-0005-12
                                       September 2014
                                       USDA’s Implementation of Cloud Computing Services

                                                        Audit Report 50501-0005-12 



What Were OIG’s
Objectives

Our objective was to evaluate
USDA agencies’ efforts to
adopt cloud computing
technologies and review           OIG reviewed the implementation of commercial cloud
contracts that agencies have      computing environments in USDA.
issued for cloud services for
compliance with applicable        What OIG Found
standards.
                                  The Department of Agriculture (USDA) has incorporated cloud computing
What OIG Reviewed                 into its overall information technology (IT) environment, but the Office of
                                  Inspector General (OIG) found that the Department does not have a
We reviewed 6 contracts, with     complete inventory of its cloud systems, due to poor inventory management
a reported value of               and the inconsistent application of the definition of a cloud computing
approximately $68.5 million,      system. We found that even though USDA has an official system of record
which were selected from a        for its inventory of IT systems, 17 of the 31 cloud systems were not included
universe of 31 contracts, with    in the inventory, and 8 additional systems were in the inventory, but not
an approximate value of           marked as cloud systems. Additionally, the level of detail included within
$128.2 million. Cloud             the contracts for procuring the systems varied across our sample, with all six
computing contracts were          reviewed contracts lacking details required by Federal guidelines. Finally,
reviewed for inclusion of         only two of the six cloud service providers tested met the requirements to
detailed specifications and       become Federal Risk and Authorization Management Program (FedRAMP)
compliance with the June 5,       compliant by June 5, 2014.
2014, FedRAMP requirement.
                                  These issues occurred because the offices and agencies have adopted cloud
What OIG Recommends               computing technologies without clear guidance, including a USDA-wide
                                  definition of what constitutes a cloud computing system. USDA does not
OIG recommends that USDA          have an adequate process for inventory management, standardized contract
establish a consistent            language for cloud computing services, and an organized approach to ensure
definition of cloud computing,    cloud systems meet FedRAMP requirements.
create and maintain an
accurate inventory of its cloud   USDA does not have adequate controls in place to manage its cloud service
systems, and develop a guide      providers and the data that reside in these systems. As a result, USDA’s
for procuring cloud systems       data are exposed to risk of loss or disclosure to unauthorized parties, which
that details specifications and   could compromise the Department’s programs and producer data.
security requirements. The        Furthermore, because five of six contracts (totaling approximately
Department also needs a           $66.9 million) did not specify how a provider’s performance was to be
detailed plan for becoming        measured, reported, or enforced, the agencies are not able to ensure adequate
FedRAMP compliant.                service levels are met, increasing the risk that USDA funds could be
                                  misspent or ineffectively used.

                                  USDA generally concurred with our findings.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          September 26, 2014

AUDIT
NUMBER:        50501-0005-12

TO:            Cheryl Cook                                    Brandon Willis
               Chief Information Officer                      Administrator
               Office of the Chief Information Officer        Risk Management Agency
               ATTN: Christopher Wren                         ATTN: Heather Manzano

               Lisa Wilusz                                    Jason Weller
               Director                                       Chief
               Office of Procurement and Property             Natural Resources Conservation
               Management                                     Service
               ATTN: Lennetta Elias                           ATTN: Leon Brooks

               Roger Klurfeld
               Director
               National Appeals Division
               ATTN: Steven Placek

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       USDA’s Implementation of Cloud Computing Services


This report presents the results of the subject audit. Your written response, dated
September 22, 2014, is included in its entirety at the end of the report. Excerpts from your response
and the Office of Inspector General’s (OIG) position are incorporated in the relevant sections of the
report. Based on your written response, we accept management decision on Recommendations 4, 5,
6, and 7. We are unable to accept management decision on Recommendations 1, 2, and 3. The
documentation or action needed to reach management decision for these recommendations is
described under the relevant OIG Position sections.

In accordance with Departmental Regulation 1720-1, please furnish a consolidated reply,
coordinated by the Office of the Chief Information Officer, within 60 days describing the
corrective actions taken or planned, and timeframes for implementing the recommendations for
which management decisions have not been reached. Please note that the regulation requires
management decision to be reached on all recommendations within 6 months from report
Cheryl Cook, et al.                                                                            2


issuance, and final action to be taken within 1 year of each management decision to prevent
being listed in the Department’s annual Agency Financial Report. Please follow your internal
agency procedures in forwarding final action correspondence to the Office of the Chief Financial
Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Cloud Inventory Management ............................................................. 3
Finding 1: USDA Must Develop an Accurate Cloud System Inventory............ 3
         Recommendation 1 ........................................................................................4
         Recommendation 2 ........................................................................................5
Section 2: Cloud Contracting ................................................................................ 6
Finding 2: USDA Needs to Include More Detailed Specifications in Its Cloud
Contracts .................................................................................................................. 6
         Recommendation 3 ......................................................................................10
Section 3: FedRAMP Compliance ...................................................................... 11
Finding 3: USDA and CSPs Must Meet FedRAMP Requirements ................. 11
         Recommendation 4 ......................................................................................12
         Recommendation 5 ......................................................................................12
         Recommendation 6 ......................................................................................13
         Recommendation 7 ......................................................................................13
Scope and Methodology ........................................................................................ 15
Abbreviations ........................................................................................................ 16
Exhibit A: Summary of Monetary Results ......................................................... 17
Agency's Response ................................................................................................ 19
Background and Objectives 
Background
Cloud computing is a term used to define information technology (IT) systems, software, or
infrastructure that are packaged and provided to customers by a service provider. The National
Institute of Standards and Technology (NIST) describes cloud systems as having five essential
components, which are:

    ·   On-demand self-service: The customer is able to unilaterally provision computing
        capabilities with the service provider, as needed, without requiring human interaction.

    ·   Broad network access: The capabilities (e.g., storage, servers, databases) of the service
        provider are accessed by the customer through a network connection.

    ·   Resource pooling: The customer shares vendor services with other customers.

    ·   Rapid elasticity: The service provider’s system allows the customer to rapidly expand or
        contract required computing resources.

    ·   Measured service: The customer’s payment for use of the cloud system is determined by
        a measured capability (e.g., seat licenses, storage used).1

Cloud computing offers the potential for significant cost savings through more efficient
provisioning of computing resources, flexible payments that increase or decrease based on
resources needed, and a decreased need to buy hardware or build data centers.

To accelerate the Federal Government’s use of cloud-computing strategies, the U.S. Chief
Information Officer published the Federal Cloud Computing Strategy, requiring agencies to
evaluate safe, secure cloud computing options before making any new investments.2 Due to this
“Cloud First” policy, Federal agencies are to evaluate cloud services for new IT projects in an
effort to realize the value of cloud computing through cost savings.

In addition to risks that resemble those of in-house information systems, cloud technologies have
risks that are unique to the system’s deployment. For example, when using a cloud system, the
customer relinquishes the ability to govern the system. Specifically, the client cedes control to
the cloud service provider (CSP) on a number of issues which may affect the system’s security.
At the same time, Service Level Agreements (SLA) may not require CSPs to offer such services,
thus leaving a gap in security defenses.3



1
  NIST Special Publication (SP) 800-145, The NIST Definition of Cloud Computing, September 2011.
2
  Kundra v. Federal Cloud Computing Strategy, February 8, 2011.
3
  European Network and Information Security Agency (ENISA) Cloud Computing: Benefits, Risks and
Recommendations for Information Security, November 2009.

                                                                      AUDIT REPORT 50501-0005-12    1
To effectively manage the delivery of cloud-computing services, agencies should develop
contracts that address business and security risks, as well as properly define and provide a
mechanism to monitor agency and CSPs’ responsibilities. Additionally, agencies must have
strong governance practices in place, including organizational control and oversight of policies,
procedures, and standards for IT service acquisition and for monitoring the use of cloud services.

In a previous audit, we identified security issues related to cloud computing. Specifically, in the
fiscal year 2012 USDA Federal Information Security Management Act (FISMA) report, we
recommended that the Office of the Chief Information Officer (OCIO) modify its service
agreement between the Department and its e-mail CSP to incorporate appropriate detail,
outlining the roles and responsibilities of each party pertaining to incident response and
reporting.4

Based on the risks surrounding cloud computing, a proposal was submitted by the National
Aeronautics and Space Administration OIG to the Council of the Inspectors General on Integrity
and Efficiency (CIGIE) for a Government-wide audit initiative on the implementation of cloud
computing at Federal agencies. The audit plan was approved by the CIGIE IT Committee and
the results from USDA OIG’s audit will be consolidated, along with results from other
participating OIGs, into a CIGIE report.5

Objectives
Our objective was to evaluate USDA agencies’ efforts to adopt cloud-computing technologies
and review contracts that agencies have issued for cloud services for compliance with applicable
standards.




4
  Audit Report 50501-0003-12, U.S. Department of Agriculture, Office of the Chief Information Officer, Fiscal Year
2012Federal Information Security Management Act, November 2012.
5
  To be released under Audit Report 50501-0007-12.

2     AUDIT REPORT 50501-0005-12
Section 1: Cloud Inventory Management  
Finding 1: USDA Must Develop an Accurate Cloud System Inventory
We determined USDA does not have an inventory that includes all of its cloud systems. More
specifically, we found that even though USDA has an official system of record for its inventory
of IT systems, 17 of the 31 cloud systems were not included in the inventory, and 8 additional
systems were in the inventory, but not marked as cloud systems. This occurred because the
Department lacks a sufficient inventory management process and not all agencies were following
the NIST definition of cloud computing when designating a system as a cloud system. As a
result, the Department does not know the number and type of its cloud systems and associated
data that reside outside of USDA information system boundaries, which increases the risk that
data could be disclosed to unauthorized parties.

The Office of Management and Budget (OMB) requires Federal agencies to follow NIST
guidance.6 According to NIST, Federal agencies need to develop and document an inventory of
information system components that: (1) accurately reflects the current information system,
(2) includes all components within the authorization boundary of the information system, and
(3) includes the granularity deemed necessary for tracking and reporting.7

In addition, an inventory of hardware and an inventory of software are the number one and two
controls listed in the Council on Cybersecurity’s Critical Security Controls.8 These two
inventories are considered two of the basic controls for building a secure network. The critical
controls are a recommended set of actions for cyber defense that provide specific and actionable
ways to mitigate the most pervasive attacks. Attackers are continuously scanning the address
space of target organizations, waiting for new and unprotected systems to be attached to a
network. Therefore it is critical to maintain an asset inventory of all systems connected to the
network, including the network devices themselves, and to include every system that has an
Internet protocol address on the network. Without an accurate and complete cloud system
inventory, agencies cannot ensure the appropriate controls are in place to protect the systems and
their data.

According to OCIO, Cyber Security Assessment and Management (CSAM) is the official system
of record for the inventory of IT systems within USDA.9 However, when we began validating
the initial inventory of 21 cloud systems that were identified from survey results submitted by

6
  OMB M-14-04, Fiscal Year 2013 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, November 18, 2013.
7
  NIST SP 800-53, Rev. 4, Security and Privacy Controls for Federal Information Systems and Organizations,
April 2013.
8
  A consortium of U.S. and international agencies and experts from private industry around the globe contributed to
the creation of the Critical Security Controls. They provided recommendations for what ultimately became the
Critical Security Controls, which were coordinated through the SANS Institute. In 2013, the stewardship and
sustainment of the controls was transferred to the Council on Cyber Security, an independent, global non-profit
entity committed to a secure and open Internet.
9
  SOP-ISD-007, Information Technology Inventory Reconciliation and Certification, April 28, 2009.

                                                                          AUDIT REPORT 50501-0005-12              3
USDA agencies and offices, we identified additional systems that were not reported to us, as
well as systems that needed to be removed from the audit universe because they were not
consistent with NIST’s definition of a cloud system. Once we had established the audit universe
of 31 cloud systems, we compared it to CSAM. We found 25 of the 31 identified systems and
supporting documentation were not included in CSAM. Due to USDA’s inability to provide an
accurate inventory of its cloud systems, along with the fact that systems and supporting
documentation were missing from CSAM, we have concluded that a complete inventory of
USDA cloud systems does not exist. This occurred because the Department lacks a sufficient
inventory management process for cloud systems. Although USDA has an inventory
management process in place, it relies on agencies to manually report their systems to OCIO for
tracking. USDA is a geographically diverse organization with 24 Chief Information
Officers (CIO) responsible for the IT management of 34 agencies and staff offices. This
decentralized nature of IT management throughout USDA provides challenges with maintaining
an accurate and complete inventory. Additionally, USDA has not consistently followed or
enforced the NIST definition of cloud computing systems. Our testing determined that agency
officials were not adhering to the NIST definition of cloud computing. In effect, agencies were
left to make their own determinations on what constitutes a cloud system. Consequently, there is
no way to certify that USDA knows of all cloud systems within the Department. In turn, this
means that the Department cannot identify all program data that reside in these systems. Without
such knowledge, USDA cannot ensure the appropriate controls are in place to protect each
system and its data. These risks include isolation failure, interception of data in transit, and
insecure/ineffective deletion of data, which could expose agency data to unauthorized parties and
potentially compromise the objectives of the agencies’ programs.10

In conclusion, USDA needs to ensure that it has an accurate and complete inventory of its cloud-
based systems.

Recommendation 1

OCIO needs to establish a definition of cloud computing systems for use within USDA that is
consistent with NIST guidance.

Agency Response
OCIO accepts this recommendation. OCIO has completed a draft cloud policy that is consistent
with NIST guidance, and contains a comprehensive definition of cloud computing systems. The
draft is being vetted internally to OCIO for review and comment, prior to being released for
formal Department-wide coordination and approval. The estimated completion date is
November 30, 2016.


10
  Isolation failure is the risk that the mechanisms used to keep cloud tenants’ data separate fail, thus exposing
sensitive data to other tenants within the cloud deployment. Intercepting data in transit is the risk that as data are
being sent to/from the cloud service, data traffic could be intercepted via sniffing or man-in-the-middle attacks.
Insecure/ineffective deletion of data is the risk that once a cloud service contract is terminated, not all data within
the cloud can be, or are, securely deleted due to the nature of the data storage within the cloud.

4      AUDIT REPORT 50501-0005-12
OIG Position
We are unable to reach management decision based on OCIO’s response. Although we agree
with the issuance of a cloud computing policy, we believe interim measures are needed if the
policy will not be ready for publication until November 30, 2016. In order to reach management
decision, OCIO needs to provide OIG with interim milestones prior to the proposed publication
date of the policy.

Recommendation 2
OCIO needs to create and maintain an accurate cloud system inventory and work with agencies
to ensure their adherence to reporting requirements.

Agency Response
OCIO accepts this recommendation. OCIO will collaborate with USDA agencies to review CSP
systems in CSAM and develop guidelines as to how CSP systems are to be recorded in CSAM so
that future reporting is complete and accurate. The estimated completion date of the CSAM
Cloud System Inventory Guide is January 30, 2016.

OIG Position
We are unable to reach management decision based on OCIO’s response. Although we agree
with the issuance of a CSAM Cloud Inventory Guide, we believe interim measures are needed if
the guide will not be ready for publication until January 30, 2016. In order to reach management
decision, OCIO needs to provide OIG with interim milestones prior to the proposed publication
date of the Cloud Inventory Guide.




                                                              AUDIT REPORT 50501-0005-12      5
Section 2:  Cloud Contracting 
Finding 2: USDA Needs to Include More Detailed Specifications in Its Cloud
Contracts
We found that all six cloud contracts in our sample did not contain detailed specifications for the
agency and the cloud service provider (CSP) to adhere to, including detailed Service Loan
Agreements (SLA), data preservation responsibilities, roles and responsibilities, Federal
regulation requirements, and audit and investigative access for OIG. 11 Although the contracts
tested did contain some of the elements, no one contract included all of the elements. This
occurred because the Department lacks guidance on a standardized approach to procuring cloud
services, including a standard set of requirements for CSPs to adhere to when USDA issues
contracts for cloud services. Due to this, USDA has not incorporated adequate service
agreements in its cloud service contracts. As a result, USDA has not implemented adequate
controls to monitor and manage its CSPs and the data that reside within the systems, exposing
USDA data to the risk of loss or exposure to unauthorized parties. Furthermore, because five of
six contracts, totaling approximately $66.9 million, did not include detailed SLAs which specify
how a provider’s performance would be measured, reported, or monitored, the agencies are not
able to ensure adequate service levels are met, increasing the risk that Government funds could
be misspent or ineffectively used.

NIST recommends that if the terms of the default service agreement do not address all consumer
needs, the consumer should discuss modifications of the service agreement with the provider
prior to use.12 In regards to consumer needs, the CIO council and Chief Acquisition
Officers (CAO) council’s cloud best practices report provides specific guidance on how Federal
agencies should effectively procure cloud services within existing regulations and laws.13 For
example, it suggests agencies establish Terms of Service (TOS) agreements that detail how
end-users may use the services, the CSP’s responsibilities, and how the CSP will deal with
customer data. It also recommends Federal agencies require CSPs to allow forensic
investigations for both criminal and non-criminal purposes. In addition, the agency and CSP’s
SLA should have clearly defined terms, definitions, and penalties for failure to meet SLA
performance measures. Specific details of our testing follow:

Service Level Agreement (SLA)

The SLA defines the expected level of service to be delivered and, in the event that the CSP fails
to deliver the service at the specified level, the service credit available to the cloud consumer.14
We found five of six cloud contracts reviewed lacked detailed SLAs, which should define the

11
   Data preservation responsibilities address how long the CSP must maintain the agency’s data, whether the agency
or CSP retains the data ownership rights, and how data are to be sanitized throughout the system lifecycle.
12
   The default service level agreements of public clouds specify limited promises that providers make to subscribers,
limit the remedies available to subscribers, and outline subscriber obligations in obtaining such remedies. NIST
SP 800-146, Cloud Computing Synopsis and Recommendations, May 2012.
13
   The CIO Council and CAO Council guidance, Creating Effective Cloud Computing Contracts for the Federal
Government Best Practices for Acquiring IT as a Service, February 24, 2012.
14
   NIST SP 800-144, Guidelines on Security and Privacy in Public Cloud Computing, December 2011.

6     AUDIT REPORT 50501-0005-12
required, measurable service levels to be provided by the CSP to the agencies. For example, the
required uptime percentage requires the CSP to maintain a level of system availability to the
agency for a specified period of time. In regards to uptime percentage, we found that five of six
contracts did not specify how a provider’s performance would be measured, reported, or
monitored, specifically:

          ·   Two of six contracts reviewed did not specify the required uptime percentages for the
              CSP.

          ·   Three of four contracts that included uptime requirements did not describe how the
              uptime percentage was calculated. The method for this calculation is critical so that
              the agency can verify the uptime percentages stated are being met by the CSP.

          ·   Two of four contracts did not detail remedies to be paid by the CSP to the agency if
              uptime requirements were not met. NIST 800-146 states that if a CSP fails to provide
              the stated availability, the CSP should compensate consumers in good faith with a
              service credit for future use of cloud services.

          ·   One of four contracts did not assign someone from the agency to monitor the actual
              uptime, compare it to the uptime percentage specified in the contract, and pursue
              service credits when applicable. NIST 800-146 states that the responsibility for
              obtaining a service credit is generally placed on the consumer, who must provide
              timely information to the CSP about the nature and the time length of the outage.

In total, these contracts are valued at approximately $66.9 million and have no established
method by which to verify that USDA agencies and offices are receiving adequate service levels.
By not establishing a method to measure, monitor, and report on the availability of the system, it
is possible that USDA funds could be misspent or ineffectively used on poorly performing
systems. Without agency monitoring and verification of the uptime percentage, the agency
cannot be assured that a service credit will be received if the specified uptime percentage is not
met. We consider the development and implementation of a guide for procuring cloud services
to be the first step for establishing sufficient cloud services contracts within USDA, which would
include the development of detailed SLAs. Based on this, we are not making a recommendation
specific to the absence of detailed SLAs in our sampled contracts.

Data Preservation

Data preservation responsibilities should address how long the CSP must maintain the agency’s
data, whether the agency or CSP retains the data ownership rights, and how data are to be
sanitized throughout the system lifecycle.15 However, for the six contracts reviewed, we found
that five did not include data preservation requirements.




15
     NIST SP 800-144, Guidelines on Security and Privacy in Public Cloud Computing, December 2011.

                                                                        AUDIT REPORT 50501-0005-12    7
Non-Disclosure Agreements (NDA)

Since CSP personnel have access to and control of the Federal data residing in the cloud system,
Non-Disclosure Agreements (NDA) are a critical control to ensure CSPs protect the information
being stored in the cloud.16 However, two of six CSPs did not sign an NDA with the agency in
order to protect non-public information that is procurement-sensitive, or affects pre-decisional
policy, physical security, or other information deemed important to protect. Of the four agencies
that did establish an NDA with the CSP, we found that all four contracts did not establish a
method for the agency to monitor end-user activities in the cloud environment.17 Defining a
method for the agency to use for monitoring end-user activities provides the agency with a
process to verify adherence to the NDA.

Roles and Responsibilities

In order to effectively manage cloud services, it is essential that roles and responsibilities are
clearly defined for the Federal agency, integrators, and the CSP.18 NIST 800-146 states that an
agency should understand both its responsibilities and those of the CSP before using a cloud
service. Accordingly, it is important that all terms are agreed to by the CSPs and the agencies to
ensure that both parties fully understand their duties when providing and using a cloud service.
During our testing, we reviewed the sampled contracts for inclusion of TOS requirements. TOS
requirements generally include how end-users may use the services, the responsibilities of the
CSP, and how the CSP will deal with customer data. Our review found four of six contracts did
not contain TOS specifications.

Federal IT Regulatory Requirements

In addition to contract roles and responsibilities, agencies are subject to unique policy and
regulatory requirements. Federal agencies must ensure that any selected cloud computing
solution is configured, deployed, and managed to meet the security, privacy, and other
requirements of the organization.19 Furthermore, NIST states that the Federal Information
Security Management Act (FISMA) and the associated NIST standards and special publications
are applicable to cloud systems. However, all six contracts reviewed did not completely address
applicable Federal rules and regulations, such as FISMA, OMB Circular A-123, or the Freedom
of Information Act.




16
   The CIO Council and CAO Council guidance, Creating Effective Cloud Computing Contracts for the Federal
Government Best Practices for Acquiring IT as a Service, February 24, 2012.
17
   The rules of behavior, which are required in OMB Circular A-130, Appendix III, and are a security control
contained in NIST SP 800-53, should clearly delineate responsibilities and expected behavior of all individuals with
access to the system. NIST SP 800-18, Guide for Developing Security Plans for Federal Information Systems,
February 2006.
18
   An integrator is an individual or organization that builds systems from a variety of diverse components. With the
increasing complexity of technology, more customers want complete solutions to information problems, requiring
hardware, software, and networking expertise in a multivendor environment.
19
   NIST SP 800-144, Guidelines on Security and Privacy in Public Cloud Computing, December 2011.

8     AUDIT REPORT 50501-0005-12
Access to CSP for Audit and Investigative Purposes

OIG offices of audit and investigations must have access to CSP personnel, facilities, and
Federal agency information to perform their statutory oversight roles. The CIO council and
CAO council’s cloud best practices report states that Federal agencies should require CSPs to
allow forensic investigations for both criminal and non-criminal purposes, and these
investigations should be able to be conducted without affecting data integrity and without
interference from the CSP.20 We reviewed the sampled contracts for the presence of
specifications that relate to this type of access.

     ·   All six contracts reviewed did not include language allowing agencies to conduct forensic
         investigations for both criminal and non-criminal purposes without interference from the
         CSP.

     ·   All six contracts did not detail procedures for electronic discovery when conducting a
         criminal investigation.

     ·   All six contracts did not include language to allow OIG full and unrestricted access to the
         contractors’ (and subcontractors’) facilities, installations, operations, documentation,
         databases, and personnel used in performance of the contract in order to conduct audits,
         inspections, investigations, or other reviews.

Without proper access to the CSP and the services being provided, OIG cannot verify that
security controls are in place to reduce risk to a level acceptable to the agency. Additionally,
limiting OIG access to CSP facilities and data could compromise and interfere with audits and
criminal investigations.

The nature of cloud computing requires customers to cede control to the CSP on a number of
issues which may affect security. At the same time, service agreements may not offer or include
a commitment from the CSP to provide such services, thus leaving a gap in security defenses.21
Without detailed contract specifications that include SLAs, data preservation responsibilities,
roles and responsibilities, regulation requirements, and audit and investigative access, USDA’s
data stored in the cloud environment are at risk. Additionally, without the ability to determine
how the CSPs’ performance is measured, reported, or monitored, USDA does not have the
ability to verify service levels are being met, which increases the risk that USDA’s funds could
be misspent or ineffectively used.

We concluded that it is critical for the Department to develop a consistent approach for cloud
system procurements, including guidance on detailed requirements that must be incorporated into
contracts.


20
   Recognizing this issue, the CIGIE IT Committee drafted clauses that would ensure OIG audit and investigative
access and proposed their inclusion in the Federal Acquisition Regulation (FAR) to the FAR Council in January
2012.
21
   European Network and Information Security Agency (ENISA), Cloud Computing: Benefits, Risks, and
Recommendations for Information Security, November 2009.

                                                                         AUDIT REPORT 50501-0005-12               9
Recommendation 3
OCIO needs to develop and implement a guide for procuring cloud systems that details
specifications and security requirements to include in the contracts.

Agency Response

OCIO accepts this recommendation. OCIO has completed a draft guide for procuring cloud
system solutions, which contains program solution specifications and security requirements. The
guide will be issued to the Office of Procurement and Property Management (OPPM) and
agencies for review and comment. The final guide will be issued by OCIO and OPPM for use
with USDA information technology cloud system solution procurement contracts. The estimated
completion date of the CSAM Cloud System Inventory Guide is November 30, 2016.

OIG Position
We are unable to reach management decision based on OCIO’s response. Although we agree
with the issuance of a guide for procuring cloud systems, we believe interim measures are
needed if the guide will not be ready for publication until November 30, 2016. In order to reach
management decision, OCIO needs to provide OIG with interim milestones prior to the proposed
publication date of the guide.




10     AUDIT REPORT 50501-0005-12
Section 3:  FedRAMP Compliance 
Finding 3: USDA and CSPs Must Meet FedRAMP Requirements
We determined that four of the six reviewed systems were not compliant with the Federal Risk
and Authorization Management Program (FedRAMP) by the required deadline of June 5, 2014.
The owners of the systems were the Natural Resources Conservation Service (NRCS), OCIO,
and the Risk Management Agency (RMA). Ultimately, this occurred because the Department
did not establish a comprehensive inventory of all cloud services. FedRAMP states that
establishing an inventory of all cloud services within an agency is a critical step on the path to
FedRAMP compliance. Once established, the agency needs to work with CSPs to update
contractual requirements and determine the path each cloud system will take in order to become
FedRAMP compliant. Since the Department did not establish an accurate cloud system
inventory, it could not plan accordingly to ensure cloud services properly achieved FedRAMP
compliance. CSPs that were non-compliant were in various stages of preparing their FedRAMP
certification review packages for submission. FedRAMP’s purpose is to ensure that cloud-based
services have an adequate information security program that addresses the specific
characteristics of cloud computing and provides the level of security necessary to protect
Government information. Failure of the cloud system to address and meet FedRAMP security
controls increases the risk that USDA program data may be compromised, intercepted, or lost,
which could expose the data to unauthorized parties.

FedRAMP was initiated on December 8, 2011, via an OMB policy memo, which addressed the
security authorization process for cloud computing services.22 In the memo, OMB requires each
executive department or agency to use FedRAMP when conducting risk assessments, security
authorizations, and granting an authority to operate (ATO) for use of cloud services.23
FedRAMP provides a cost-effective, risk-based approach for the adoption and use of cloud
services. It includes:

     ·   Standardized security requirements for the authorization and ongoing cybersecurity of
         cloud services for selected information system impact levels.24

     ·   A conformity assessment program capable of producing consistent independent,
         third-party assessments of security controls implemented by CSPs.



22
   S. VanRoekel, Security Authorization of Information Systems in Cloud Computing Environments,
December 8, 2011.
23
   The assessment and authorization process is the new terminology for the former certification and accreditation
process mandated by OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources
(November 28, 2000). The process requires that IT system controls be documented and tested by technical
personnel and that the system be given a formal ATO by an agency official before the system can be operated.
24
   The system’s security category is determined in accordance with Federal Information Processing Standard 199.
After the category is determined, the contractor shall apply the appropriate set of baseline controls as required in the
FedRAMP Cloud Computing Security Requirements Baseline document to ensure compliance with security
standards. The FedRAMP baseline controls are based on NIST SP 800-53, Rev. 4.

                                                                           AUDIT REPORT 50501-0005-12               11
     ·   Authorization packages of cloud services reviewed by a Joint Authorization Board
         consisting of security experts from Department of Homeland Security, Department of
         Defense, and General Services Administration.25

     ·   Standardized contract language to help executive departments and agencies integrate
         FedRAMP requirements and best practices into acquisitions of cloud systems.

     ·   A repository of authorization packages for cloud services that can be leveraged
         Government-wide.

Due to the unique risks associated with cloud computing environments, FedRAMP incorporated
controls from NIST 800-53 into its baseline security control framework for use with cloud
systems. All cloud services currently implemented were required to meet FedRAMP
requirements by June 5, 2014.

Without complying with FedRAMP, USDA and its agencies could be facing significant
cloud-related security weaknesses that are, as yet, unknown. It is therefore critical that USDA
move, in a timely manner, to bring these systems into compliance.

Recommendation 4
OCIO needs to conduct oversight to ensure each agency with cloud services obtains FedRAMP
compliance.

Agency Response
OCIO accepts this recommendation. OCIO will provide Department-wide guidance via
memorandum to USDA Agencies requiring them to obtain FedRAMP certification of cloud
services and will establish an organizational structure to provide oversight to monitor and ensure
that USDA agencies cloud services are FedRAMP compliant. The estimated completion date for
issuing the Departmental Memorandum on FedRAMP Certification is December 30, 2014, and
the estimated completion date for the OCIO FedRAMP Oversight Program is March 30, 2015.

OIG Position
We accept OCIO’s management decision.

Recommendation 5
RMA needs to develop a detailed plan to attain FedRAMP compliance for its cloud service that
is non-compliant.


25
  Authorization packages contain the body of evidence needed by authorizing officials to make risk-based decisions
regarding the information systems providing cloud services. A package should include, at a minimum, the security
plan, security assessment report, plan of action and milestones, and a continuous monitoring plan.

12       AUDIT REPORT 50501-0005-12
Agency Response
RMA concurs with the recommendation. RMA is aware that the CSP is pursuing FedRAMP
certification by either the Agency Authorization path or the Provisional Authorization Path.
USDA is not the Agency Sponsor. RMA will contact the CSP to determine their status on
attaining FedRAMP certification. Based on CSP information RMA will develop a detailed plan
to track the CSP's progress toward attaining FedRAMP certification. Given that RMA is not the
CSP's sponsor, it is not responsible for delays in completing FedRAMP certification but will
continuously monitor the progress and update the plan accordingly. The estimated completion
date for the plan is November 30, 2014.

OIG Position
We accept RMA’s management decision.

Recommendation 6
NRCS needs to develop a detailed plan to attain FedRAMP compliance for its cloud service that
is non-compliant.

Agency Response
NRCS concurs with the recommendation. NRCS is aware that the CSP is pursuing FedRAMP
certification for the CSP software by the Provisional Authorization Path. NRCS will contact the
CSP to determine their status on attaining FedRAMP certification. Based on the response NRCS
will track the CSP’s progress toward attaining FedRAMP certification. Given that NRCS is not
the cloud service provider for the software. NRCS is not responsible for delays in completing
FedRAMP certification but will continuously monitor and track the CSP progress accordingly.
The estimated completion date for the plan is November 30, 2014.

OIG Position
We accept NRCS’ management decision.

Recommendation 7
OCIO needs to develop a detailed plan to attain FedRAMP compliance for its cloud service that
is non-compliant.

Agency Response
OCIO concurs with the recommendation. OCIO is the Agency Sponsor for the CSP that is
pursuing FedRAMP certification by the Agency Authorization Path. OCIO will work with the
CSP to determine their status on attaining FedRAMP certification. OCIO will develop a detailed
plan to track the CSP's progress toward attaining FedRAMP certification. OCIO will


                                                           AUDIT REPORT 50501-0005-12       13
continuously monitor the CSP's progress and update the plan accordingly. The estimated
completion date for the plan is November 30, 2014.

OIG Position
We accept OCIO’s management decision.




14     AUDIT REPORT 50501-0005-12
Scope and Methodology 
This work was conducted to evaluate USDA’s efforts to adopt cloud-computing technologies in
a manner that complied with current guidance issued by OMB, NIST, and the Department. The
documentation includes results from audit tests of a sample of contracts that USDA and its
agencies and offices issued for cloud services for compliance with applicable standards.

For this audit, we obtained an inventory of cloud systems. The information was solicited from
all agencies and offices within USDA through the use of a survey and did not rely on
information derived from any USDA database.

Based on the information obtained, we attempted to validate the survey results by comparing the
results with information housed in CSAM, and to USDA’s Exhibit 53c submission. We
ultimately assembled an audit universe of USDA’s cloud systems consisting of 31 contracts, with
a value of approximately $128.2 million; however, we cannot be certain that we identified all
cloud systems within USDA. Only cloud systems from commercial service providers were
included in the universe. From the audit universe, we selected a non-statistical sample of six
contracts for detailed testing. The sample, with a total value of $68.5 million, was selected based
on a combination of highest dollar value contracts and system risk. Additionally, we reviewed
related contract documentation and guidance, and interviewed applicable personnel in order to
obtain sufficient and appropriate audit evidence to support our conclusions.

Fieldwork was conducted between January and June, 2014 at applicable agency locations in
Washington, D.C.; Albuquerque, New Mexico; Fort Collins, Colorado; and Kansas City,
Missouri. In total, our audit work covered four agencies and staff offices:

   ·   NAD
   ·   NRCS
   ·   OCIO, and
   ·   RMA.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                                              AUDIT REPORT 50501-0005-12       15
Abbreviations 
ATO ............................ authority to operate
CAO ............................ Chief Acquisitions Officers
CIGIE .......................... Council of the Inspectors General on Integrity and Efficiency
CIO .............................. Chief Information Officer
CSAM ......................... Cyber Security Assessment and Management
CSP ............................. cloud service provider
ENISA ......................... European Network and Information Security Agency
FAR ............................. Federal Acquisition Regulation
FedRAMP ................... Federal Risk and Authorization Management Program
FISMA ........................ Federal Information Security Management Act
IT ................................. information technology
NAD ............................ National Appeals Division
NDA ............................ non-disclosure agreement
NIST ............................ National Institute of Standards and Technology
NRCS .......................... Natural Resource Conservation Service
OCIO ........................... Office of the Chief Information Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
OPPM.......................... Office of Procurement and Property Management
RMA ........................... Risk Management Agency
SLA ............................. service level agreement
SP ................................ special publication
TOS ............................. terms of service agreements
USDA ......................... Department of Agriculture




16      AUDIT REPORT 50501-0005-12
Exhibit A: Summary of Monetary Results 

Exhibit A summarizes the monetary results for our audit report by finding and recommendation
number.

   Finding      Recommendation   Description             Amount              Category
      2               3        CSP Contract           $66,871,914       Questioned Costs, No
                               Performance                              Recovery
                               Measurement,                             Recommended
                               Reporting, and
                               Monitoring
Total                                                 $66,871,914




                                                          AUDIT REPORT 50501-0005-12      17
18   AUDIT REPORT 50501-0005-12
Agency's Response 




                        USDA’S 
               RESPONSE TO AUDIT REPORT 




                                 AUDIT REPORT 50501-0005-12   19
                                       United States Department of Agriculture



Departmental          TO:               Gil H. Harden
Management
                                        Assistant Inspector General for Audit
Office of the Chief                     Office of Inspector General
Information Officer

1400 Independence     FROM:             Cheryl L. Cook                         /s/ Joyce Hunter SEP 19 2014
Avenue S.W.                             Chief Information Officer                    FOR
Washington, DC
20250                                   Office of the Chief Information Officer

                                        Brandon Willis                           /s/ SEP 22 2014
                                        Administrator
                                        Risk Management Agency

                                        Jason Weller                         /s/ SEP 19 2014
                                        Chief
                                        Natural Resources Conservation Service


                      SUBJECT:          Response to Official Draft Report, 50501-0005-12, USDA’s
                                        Implementation of Cloud Computing Services


                      The Office of the Chief Information Officer (OCIO), the Office of Procurement and
                      Property Management (OPPM), the Risk Management Agency (RMA), and the
                      Natural Resources Conservation Service (NRCS) have reviewed the Official Draft
                      Report, 50501-0005-12, USDA’s Implementation of Cloud Computing Services and
                      submit the following response to OIG’s recommendations.
                      Recommendation 1
                      The Office of the Chief Information Officer (OCIO) needs to establish a definition of
                      cloud computing systems for use within USDA that is consistent with the National
                      Institute of Standards and Technology (NIST) guidance.
                      Agency Response: OCIO accepts this recommendation. OCIO has completed a draft
                      cloud policy that is consistent with NIST guidance, and contains a comprehensive
                      definition of cloud computing systems. The draft is being vetted internally to OCIO
                      for review and comment, prior to being released for formal Department-wide
                      coordination and approval
                            Departmental Regulation on Cloud Computing Policy
                             Target Completion Date: November 30, 2016


                      Recommendation 2




                      AN EQUAL OPPORTUNITY EMPLOYER
OCIO needs to create and maintain an accurate cloud system inventory and work with
agencies to ensure their adherence to reporting requirements.


Agency Response: OCIO accepts this recommendation. OCIO will collaborate with
USDA agencies to review CSP systems in CSAM and develop guidelines as to how
CSP systems are to be recorded in CSAM so that future reporting is complete and
accurate.
   CSAM Cloud System Inventory Guide
     Target Completion Date: January 30, 2016


Recommendation 3
OCIO needs to develop and implement a guide for procuring cloud systems that
details specifications and security requirements to include in the contracts.
Agency Response: OCIO accepts this recommendation. OCIO has completed a
draft guide for procuring cloud system solutions, which contains program solution
specifications and security requirements. The guide will be issued to OPPM and
agencies for review and comment. The final guide will be issued by OCIO and OPPM
for use with USDA information technology cloud system solution procurement
contracts.
      Departmental Regulation on Cloud Computing Policy
       Target Completion Date: November 30, 2016


Recommendation 4
The Office of the Chief Information Officer (OCIO) needs to conduct oversight to
ensure each agency with cloud services obtain Federal Risk and Authorization
Management Program (FedRAMP) compliance.
Agency Response: OCIO accepts this recommendation. OCIO will provide
Department-wide guidance via memorandum to USDA Agencies requiring them to
obtain FedRAMP certification of cloud services and will establish an organizational
structure to provide oversight to monitor and ensure that USDA agencies cloud
services are FedRAMP compliant.
      Departmental Memorandum on FedRAMP Certification
       Target Completion Date: December 30, 2014

      OCIO FedRAMP Oversight Program
       Target Completion Date: March 30, 2015


Recommendation 5

The Risk Management Agency (RMA) needs to develop a detailed plan to attain




AN EQUAL OPPORTUNITY EMPLOYER
FedRAMP compliance for its cloud service that is non-compliant.

Agency Response: RMA concurs with the recommendation. RMA is aware that the
CSP is pursuing FedRAMP certification by either the Agency Authorization path or
the Provisional Authorization Path. USDA is not the Agency Sponsor. RMA will
contact the CSP to determine their status on attaining FedRAMP certification. Based
on CSP information RMA will develop a detailed plan to track the CSP's progress
toward attaining FedRAMP certification. Given that RMA is not the CSP's sponsor,
it is not responsible for delays in completing FedRAMP certification but will
continuously monitor the progress and update the plan accordingly.

    RMA CSP FedRAMP Certification Tracking Plan
     Target Completion Date: November 30, 2014


Recommendation 6
The Natural Resources Conservation Service (NRCS) needs to develop a detailed
plan to attain FedRAMP compliance for its cloud service that is non-compliant.

Agency Response: NRCS concurs with the recommendation. NRCS is aware that
Pega Systems is pursuing FedRAMP certification for the PEGA software by the
Provisional Authorization Path. NRCS will contact Pega Systems to determine their
status on attaining FedRAMP certification. Based on Pega Systems response NRCS
will track PEGA’s progress toward attaining FedRAMP certification. Given that
NRCS is not the cloud service provider for PEGA software. NRCS is not responsible
for delays in completing FedRAMP certification but will continuously monitor and
track Pega Systems progress accordingly.

    NRCS CSP FedRAMP Certification Tracking Plan
     Target Completion Date: November 30, 2014


Recommendation 7
OCIO needs to develop a detailed plan to attain FedRAMP compliance for its cloud
service that is non-compliant.

Agency Response: OCIO concurs with the recommendation. OCIO is the Agency
Sponsor for the CSP that is pursuing FedRAMP certification by the Agency
Authorization Path. OCIO will work with the CSP to determine their status on
attaining FedRAMP certification. OCIO will develop a detailed plan to track the
CSP's progress toward attaining FedRAMP certification. OCIO will continuously
monitor the CSP’s progress and update the plan accordingly.

    OCIO CSP FedRAMP Certification Tracking Plan

     Target Completion Date: November 30, 2014




AN EQUAL OPPORTUNITY EMPLOYER
cc:       Jane Bannon, Program Manager, OIG
          Christopher Wren, OCIO Audit Liaison
          Lennetta Elias, OCFO Audit Liaison




AN EQUAL OPPORTUNITY EMPLOYER
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste and Abuse
e-mail: USDA.HOTLINE@oig.usda.gov
phone: 800-424-9121
fax: 202-690-2474

Bribes or Gratuities
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the
Assistant Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250­
9410, or call toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English
Federal-relay) or (800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
